HHS/OIG, Audit -"Follow-Up Review of Medicare Payments For Institutionalized Beneficiaries - Medica Health Maintenance Organization,"(A-05-00-00060)
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Follow-Up Review of Medicare Payments For Institutionalized Beneficiaries - Medica Health Maintenance Organization," (A-05-00-00060)
June 22, 2001
Complete
Text of Report is available in PDF format (170 KB). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this audit was to determine if Medica corrected the problem of improper institutional classifications
that resulted in Medicare overpayments, as presented in our previous audit report, issued in May 1995.  Although Medica
attempted corrective actions to address the problem, Medicare overpayments have continued.  Based on the projection
of the results of a sample of 100 beneficiaries receiving institutional payments during the period of June 1, 1998 through
May 31, 2000, we are recommending that Medica refund an additional $133,795 in estimated Medicare overpayments.